No.
IN THE
SUPREME COURT OF THE UNITED STATES

RODNEY JOHNSON, Petitioner,
-vs-

PEOPLE OF THE STATE OF ILLINOIS, Respondent.
On Petition For Writ Of Certiorari
To The Appellate Court Of Ilinois

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner requests leave to proceed in forma pauperis. The Petitioner

has previously been granted leave to proceed in forma pauperis in the court below.
Counsel was appointed to represent petitioner in the court below pursuant to 725
ILCS 105/10(a).

Respectfully submitted,

DOUGLAS R. HOFF

Deputy Defender

/s/ Ann C. McCallister

ANN C. MCCALLISTER
Supervisor

Counsel of Record

Office of the State Appellate Defender
First Judicial District

203 N. LaSalle St., 24th Floor
Chicago, IL 60601

(312) 814-5472
1stDistrict@osad.state.il.us

COUNSEL FOR PETITIONER
Of Counsel:
Eric E. Castaneda
Assistant Appellate Defender
